                                           AAAAAAAAAAAAAAAAA




              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Concerns With Security Barriers at the
Y-12 National Security Complex




DOE/IG-0741                                 October 2006
CONCERNS WITH SECURITY BARRIERS AT THE Y-12
NATIONAL SECURITY COMPLEX




TABLE OF
CONTENTS


               OVERVIEW

               Introduction and Objective     1

               Observations and Conclusions   1


               DETAILS OF FINDINGS

               Weapon Ports                   2

               Observations                   2


               RECOMMENDATIONS                5


               MANAGEMENT COMMENTS            5


               INSPECTOR COMMENTS             5


               APPENDICES

               A. Scope and Methodology       8

               B. Management Comments         9
Overview

INTRODUCTION       The DOE Office of Inspector General received an allegation that
AND OBJECTIVE      newly constructed concrete security barriers at the Y-12 site were
                   inadequate because the design of the weapon ports did not take
                   into consideration the space required for the weapons’ sight
                   system. Specifically, the complaint alleged that weapon port
                   openings were not designed to accommodate the sight system of
                   protective force weapons, limiting the ability of security police
                   officers to maneuver their weapons when firing through the ports.
                   Construction of the security barriers was one of three security
                   upgrades under the “West Fort” project designation.

                   The objective of this inspection was to determine the facts and
                   circumstances surrounding the allegation.

OBSERVATIONS AND   The allegation was substantiated. We found that the original
CONCLUSIONS        measurements for the weapon ports in 90 concrete security barriers
                   resulted in ports that were undersized and unable to adequately
                   accommodate the sight system on the protective force weapons.
                   Site contractor officials discovered the ports were undersized after
                   the barriers were constructed. The weapon ports were
                   subsequently modified.

                   We found that the original measurements for the weapon ports
                   were based on erroneous information provided by Wackenhut, the
                   security contractor. Yet, to pay for the $27,000 cost to modify the
                   weapon ports, the contractor used funds allocated for normal
                   operational contingencies.

                   We also observed that BWXT received payment of $525,000 under
                   a performance-based incentive (PBI) for completion of three
                   security upgrades for the West Fort project, even though two of the
                   upgrades were completed after the date specified in the PBI. A
                   PBI provides a contractor a monetary incentive to complete a
                   specified task within a specified time period.




Page 1                                           Concerns with Security Barriers
                                                 at the Y-12 National Security
                                                 Complex
Details of Findings

WEAPON PORTS          According to NNSA, the Y-12 security barriers were designed to
                      meet the requirements of DOE’s Design Basis Threat (DBT)
                      Policy, dated May 2003. The design plans included detailed
                      specifications for a weapon port in each security barrier.

                      We found that the original measurements for the weapon ports in
                      90 security barriers resulted in ports that were undersized and
                      unable to adequately accommodate the sight system on protective
                      force weapons. We learned that the barriers were constructed from
                      concrete poured into forms and set in the location the barriers
                      would be deployed. Reportedly, the weapon ports were found to
                      be undersized during a protective force exercise after the barriers
                      were constructed. The weapon ports were subsequently modified
                      to accommodate the sight system of the protective force weapons.

                      Wackenhut acknowledged that one of its employees provided the
                      specifications for the weapon ports to BWXT. The Wackenhut
                      employee, in an interview with the Office of Inspector General,
                      contended that the sight system for the protective force weapons was
                      changed between the time when the specifications were provided to
                      BWXT and when the security barriers were made. He said that the
                      new sight system required the weapon port dimensions to be
                      increased by two inches. The Wackenhut official said that when
                      the sight system was changed, he did not readjust the weapon port
                      specifications to accommodate the new sight system.

                      However, we found that Wackenhut first ordered the upgraded
                      weapon sights in December 2003, almost a year before Wackenhut
                      provided the weapon port specifications to BWXT in November
                      2004. Therefore, at the time of the original design, Wackenhut had
                      information regarding the upgraded sight specifications and was in
                      a position to provide the correct measurements for the weapon
                      ports to BWXT. We concluded, based on the timing of the
                      available information, that Wackenhut had the opportunity to
                      provide the correct sizing specification to BWXT prior to
                      construction, but that it failed to do so.

OBSERVATIONS          During the inspection, we observed that the contractors were not
                      held accountable for the cost of correcting the weapon ports. In
                      fact, they used general project contingency funds to pay for the
                      modification. Further, we noted that BWXT was paid over
                      $500,000 as part of a PBI for security upgrades for the West Fort
                      project that were not, in fact, completed by the required PBI
                      completion date.



Page 2                                                               Details of Findings
Contingency Funds   Although the original measurements for the weapon ports were
                    based on erroneous information provided by Wackenhut, the
                    $27,000 cost to modify the weapon ports in the 90 security barriers
                    was paid using funds allocated for normal operational
                    contingencies.

                    According to a BWXT official, the cost to modify the weapon port
                    in each barrier was $300. Therefore, the total cost to modify the
                    ports in the 90 security barriers was $27,000. Although BWXT
                    managed the barrier project, they relied on Wackenhut’s expertise
                    in security matters to provide the information for the size of the
                    weapon ports. A BWXT official acknowledged that the $27,000 used
                    to modify the weapon ports was paid from project contingency funds.
                    However, an NNSA Y-12 official told us that if the size of the
                    weapon port openings was incorrect as a result of contractor error, the
                    use of contingency funds to pay for the modifications would be
                    inappropriate. According to the NNSA official, the final determination
                    whether the use of the contingency fund was appropriate in this case
                    should be made by the Y-12 Contracting Officer.

                    We noted that the BWXT Program Execution Plan for the barrier
                    project, which addressed the use of contingency funds, stated that
                    contingency for the project was included “to allow for unknown but
                    reasonably expected additional costs to the project.” We do not believe
                    that the cost resulting from Wackenhut providing erroneous
                    information to BWXT concerning the size of the weapon ports
                    falls into the category of a reasonably expected additional cost.
                    Thus, in our judgment, the contractor should have been held
                    accountable for these additional costs.

Performance         BWXT received payment of $525,000 under a PBI for completion
Based Incentive     of three security upgrades for the West Fort project, even though
                    two of the upgrades were completed after the date specified in the
                    PBI.

                    The total available PBI award was $750,000 for completion of two
                    projects; $525,000, or 70 percent of the available PBI award, was
                    for completion of the West Fort project, while the remainder was
                    for completion of another project. The West Fort project consisted
                    of three security upgrades, one of which was the construction of
                    the 90 security barriers with the weapon ports. The effective date
                    for the contractor to receive the full amount of the PBI award
                    available for completion of the three security upgrades for the
                    West Fort project was April 15, 2005.



Page 3                                                               Details of Findings
         We learned that BWXT officials submitted the PBI completion
         form to NNSA stating that the three security upgrades had been
         completed on April 15, 2005. The “Completion Evidence
         Summary” for the PBI stated that “BWXT Y-12, WSI-OR
         [Wackenhut-Oak Ridge] and NNSA YSO [Y-12 Site Office]
         completed a walk down . . . on April 15, 2005 to verify the status
         of completed work” and the three security upgrades “were in place
         or under final construction activities [emphasis added] at the time
         of the walk through.” While the concrete security barriers were in
         place by April 15, 2005, the barriers contained weapon ports that
         did not adequately accommodate the sight systems of the
         protective force weapons. We learned that the modifications to the
         weapons ports were not fully completed until May 26, 2005, and
         that the other two security upgrades were not completed until
         December 2005, well after the PBI completion date. Subsequently,
         BWXT was paid the entire $525,000 for completion of the three
         security upgrades under the West Fort project.

         When we interviewed a BWXT manager, he acknowledged at that time
         that the weapon ports were not correctly sized. Nonetheless, the day
         after our interview, the manager signed and submitted the completion
         form for the PBI payment. An NNSA Y-12 official advised that at
         the time NNSA approved payment of the PBI to BWXT, NNSA
         was unaware that the weapon ports had been incorrectly designed
         and formed. The NNSA official said that if the weapon port
         openings could not be effectively used as designed by the security force
         and modifications were required, the barriers could not be considered
         complete until after the modifications were made. The NNSA official
         advised us that the PBI award would be re-evaluated.

         We discussed the PBI award with an official from the Headquarters
         NNSA Office of Acquisition and Supply Management. The
         official told us that it would be inappropriate to pay a contractor
         under a PBI for incomplete work.




Page 4                                                     Details of Findings
RECOMMENDATIONS   We recommend the Manager, Y-12 Site Office:

                  1. As a minimum, recoup the portion of the $525,000 PBI award
                     paid to BWXT for the two security upgrades that were not fully
                     operational on the completion date specified by the PBI;

                  2. Recoup from Wackenhut the $27,000 cost to modify the
                     weapon ports;

                  3. Ensure that contingency funds for projects managed by BWXT
                     are not utilized for inappropriate purposes;

                  4. Ensure that future weapon ports placed in security barriers or
                     other structures are properly sized to maximize the
                     effectiveness of protective forces; and,

                  5. Consider the information disclosed by our review regarding
                     BWXT’s failure to inform NNSA about the incorrectly sized
                     weapon ports before NNSA approved payment for the PBI, and
                     take appropriate action with respect to determining award fee.

MANAGEMENT        NNSA generally disagreed with the conclusions and the
COMMENTS          recommendations that NNSA should recoup monies that were paid
                  to the contractor. Management cited differences of opinion with the
                  OIG as the basis for its disagreement with the recommendations.
                  Management’s comments are included in their entirety as
                  Appendix B.

INSPECTOR         In our view, management’s disagreement with the recommendations
COMMENTS          to recoup monies from the contractor ignores the factual record and
                  places the burden on the taxpayers to pay for the contractors’ failure
                  to provide due diligence in the design of the barriers and the timely
                  completion of the West Fort project.

                  Regarding Recommendation 1, management did not concur with
                  the recommendation to recoup a portion of the $525,000 PBI
                  award. Management stated that it paid the award based on the Site
                  Office’s belief that the completion criteria established in the
                  incentive plan for the subject portion of the PBI were met.

                  We note that management’s comments are inconsistent with the
                  facts of the matter. Specifically, two of the security upgrades
                  under the West Fort project were clearly not completed by the
                  completion date of April 15, 2005, established by the PBI. These



Page 5                                   Recommendations
                                         Management and Inspector Comments
         two upgrades were not completed until December 2005.
         Therefore, in our view, the principal completion requirements
         established by the PBI were not met.

         According to management, the completion criteria for the two
         upgrades were contained in the “Evidence of Completion” section
         of the PBI. These criteria consisted of closure of the perimeter and
         implementation of revised access controls. However, we noted
         that BWXT was unable to implement the revised access controls as
         required by the “Evidence of Completion” section because one
         security upgrade, the vehicle and pedestrian access, did not have
         complete fence grounding and electricity to the turnstiles.
         Consequently, BWXT had to post additional protective force
         personnel at the vehicle and pedestrian access. Also, the second
         security upgrade did not have the required concertina wire and
         three gate operator relays were incorrect, as reported in the BWXT
         Project/System Turnover Review documentation.

         Regarding Recommendation 2, management did not concur with
         the recommendation to recoup the $27,000 cost to modify the
         weapons ports. Management stated that at the time of original
         design of the weapon ports, the size of the weapon ports was
         correct. It was after the decision to upgrade weapons capability by
         modifying weapons’ sight systems that it was determined that the
         weapons ports needed to be modified.

         However, as stated in our report, Wackenhut had first ordered the
         upgraded weapon sights in December 2003, almost a year before
         Wackenhut provided the weapon port specifications to BWXT in
         November 2004. Therefore, Wackenhut was in a position to
         initially provide the correct measurements for the weapon ports to
         BWXT.

         Regarding Recommendation 3, management did not concur with
         the recommendation to ensure contingency funds for projects
         managed by BWXT are not utilized for inappropriate purposes.
         Management stated that it was a correct management decision to
         utilize contingency funds to modify the weapons ports.

         As discussed in our report, BWXT’s Program Execution Plan for
         the barriers stated that contingency funds allow for unknown but
         reasonably expected additional costs to the project. However, we
         do not view an error by the contractor as being an expected
         additional cost to the project. Therefore, the $27,000 cost to
         modify the weapon ports should not be paid by project contingency



Page 6                          Management and Inspector Comments
         funds, and ultimately the taxpayer. Instead, the contractor that
         provided the incorrect measurements should be held accountable
         for the cost.

         Although management concurred with Recommendation 5,
         management stated that contractor award fee would not be
         impacted. In our view, BWXT officials were, at a minimum, being
         disingenuous when they submitted the PBI completion form to
         NNSA stating that all the security upgrades had been completed on
         April 15, 2005. As previously discussed, two of the security
         upgrades were not completed until December 2005. We believe
         the award fee determination should include the contractor’s failure
         to provide accurate project information to NNSA officials.




Page 7                          Management and Inspector Comments
Appendix A

SCOPE AND     The DOE Office of Inspector General received an allegation that
METHODOLOGY   substantial funds were wasted on newly constructed security
              barriers at the Y-12 National Security Complex. Specifically, the
              complaint alleged that the gun ports that are part of the security
              barriers are inadequate because they were designed without the
              necessary room needed to accommodate the weapon’s sight
              system. We identified and reviewed key documents applicable to
              the inspection and interviewed DOE and contractor officials.

              Also, pursuant to the “Government Performance and Results Act
              of 1993,” we reviewed Y-12’s performance measurement
              processes as they relate to contract management.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 8                                                Scope and Methodology
Appendix B




Page 9       Management Comments
Appendix B         (continued)




Page 10      Management Comments
Appendix B         (continued)




Page 11      Management Comments
                                                                    IG Report No. DOE/IG-0741

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
